4
|

(COCKLE

Legal Briefs

2311 Douglas Street
Omaha, Nebraska 68102-1214

Est. 1923
1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850
No. 20-1606
BRETT HENDRICKSON,
Petitioner,
v.

E-Mail Address:
contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

AFSCME COUNCIL 18; MICHELLE LUJAN GRISHAM,

IN HER OFFICIAL CAPACITY AS GOVERNOR OF
NEW MEXICO; AND HECTOR BALDERAS,

IN HIS OFFICIAL CAPACITY AS

ATTORNEY GENERAL OF NEW MEXICO,

Respondents.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the RESPONDENTS
MICHELLE LUJAN GRISHAM AND HECTOR BALDERAS’ RESPONSE TO PETITION FOR
WRIT OF CERTIORARI in the above entitled case complies with the typeface requirement of

Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and

10 point for the footnotes, and this brief contains 4432 words, excluding the parts that are

exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 24th day of September, 2021.
Iam duly authorized under the laws of the State of Nebraska to administer oaths.

My Comm. Exp. September 5, 2023

Affiant

GENERAL NOTARY-State of Nebraska Z&. Chk
RENEE J. GOSS 9 . ,
Notary Public

41430
